      Department of Homeland Security




            The City of San Buenaventura, California, 

           Did Not Properly Account for and Expend 

              FEMA Public Assistance Grant Funds 





DS-13-03                                          January 2013

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security




                                         JAN      3 2:013

MEMORANDUM FOR:                     N~ncy    Ward
                                                            rator, Region IX
                                                                               Agency

FROM:
                                    A§§i§tant Inspector General
                                    Office of Emergency Management Oversight

SUBJECT:                            The City of Son Buenoventura, California, Did Not Properly
                                    Accountfor and Expend FEMA Public Anistance Grant
                                    Funds
                                    FEMA Disaster Number lS77-DR-CA
                                    Audit Report Number DS·13-03

We audited Public Assistance (PAj grant funds awarded to the City of San Buenaventura,
California (City), Public Assistance Identification Number 111-65042-00. Our audit
objective was to determine whether the City accounted for and expended Federal
Emergency Management Agency (FEMA) grant funds according to Federal regulations
and FEMAguidelines,

The California Emergency Management Agency (Cal EMAj, a FEMA grantee, awarded
the City $2,307,402 for costs resulting from storms, flooding, debris flows, and
mudslides from December 27, 2004, through January 11, 2005.' The award provided 75
percent FEMA funding for 11 large projects and 9 small projects.' Our audit covered the
period from December 27, 2004, to July 11, 2012. We audited five large projects with a
total award of $1,425,482 (see Exhibit, Schedule of Audited Projects). As of July 2012,
the City had allocated costs totaling $2,131,549 to the projects in our review and had
not submitted a final claim for this subgrant award_

We conducted this performance audit between January and August 2012 pursuant to
the Inspector General Act of 1978, as amended, and according to generally accepted
government auditing standards_ Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our

- At the time of thi, di"" ter, th. grantee', n. me was the Governor', Offite of Emerg~ncy ServiCes, which
be<:.me part of Col EM ... on J.nu ory 1, 2009.
, Fed... 1regulation, in effect " the time of the di, .. ter ,et the lorge ..,-o';"<t thres/lold at $55,500,
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
   findings and conclusions based upon our audit objective. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objective. We conducted this audit applying the statutes, regulations, and FEMA
   policies in effect at the time of the disaster.

   We interviewed FEMA, Cal EMA, and City officials; judgmentally selected (generally
   based on dollar value) 5 out of 11 total large projects to audit; and performed other
   procedures considered necessary to accomplish our audit objective. We did not assess
   the adequacy of the City’s internal controls applicable to its grant activities because it
   was not necessary to accomplish our audit objective. We did, however, gain an
   understanding of the City’s method of accounting for disaster-related costs and its
   policies and procedures.


                                      RESULTS OF AUDIT

   Of the $2,131,549 in project charges we reviewed, the City did not properly account for
   and expend $1,517,065 in accordance with Federal grant regulations and FEMA
   guidelines. Additionally, the City has $86,585 in unneeded funding that can be
   deobligated and put to better use (see table 1).

                  Table1. Summary of Questioned Costs and Funds Not Used
                                                          Questioned     Unneeded
      Finding                       Subject
                                                             Costs        Funding
         A           Ineligible Repairs and Project Costs   $1,014,589
         B            Ineligible Hazard Mitigation Costs       233,973
         C          Ineligible Project Replacement Costs       268,503
        D                     Unneeded Funding                              $86,585
       Total                                                $1,517,065      $86,585

   Finding A: Project Costs Are Not Eligible for Reimbursement

   The City has charged Project 897 with $1,014,589 in costs that we determined are not
   eligible for PA funding. FEMA approved the project’s scope of work (SOW) to restore the
   City’s water pipelines to predisaster condition. In performing those repairs, the City did
   not follow FEMA’s approved repair methodology and incurred costs for work not included
   in the SOW. The City also charged the project with ineligible hazard mitigation expenses.




www.oig.dhs.gov                                 2                                         DS-13-03

                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security
   Federal requirements and FEMA guidelines stipulate the following:

   •	 The grantee shall make an accounting to the Regional Director, FEMA, of eligible
      costs for each approved large project. In submitting the accounting, among other
      things, the grantee shall certify that reported costs were incurred in the
      performance of eligible work, that the approved work was completed, and that the
      project is in compliance with the provisions of the FEMA-State agreement (44 CFR
      206.205(b)(1)).

   •	 An item of work must be required as a result of a major disaster to be eligible for
      financial assistance (44 CFR 206.223(a)(1)).

   •	 To be allowable under Federal awards, costs must be necessary, reasonable, and
      adequately documented (2 CFR 225, CostfPrinciplesfforfState,fLocal,fandfIndianfTribalf
      Governments, Appendix A, Sections C.1.a and C.1.j).3

   FEMA approved and funded permanent repairs under Project 897 totaling $420,804.
   However, as shown in table 2, the City has charged the project $1,014,589 to complete
   the work.

                    Table2. Project Approved Amounts and Incurred Charges
                                                FEMA Approved
                    Work Category                                    Project Charges
                                                    Amount
       Repairs Under Contract                           $185,475           $ 371,729
       Force Account and Professional Services            235,329              246,710
       Rental Equipment and Category B Tasks                    0              162,177
       Hazard Mitigation Planning                               0              233,973
       Total                                            $420,804           $1,014,589

   In completing the FEMA-approved repairs, the City—

   •	 Did not apply FEMA’s approved repair methodology—

         o	 FEMA approved a repair methodology described as a pipe-bursting method,
            recommended by the City’s own consultant.4

   3
     In effect at the time of the disaster, Office of Management and Budget Circular A-87 relocated to 2 CFR
   225 on August 31, 2005.
   4
     GuidelinesfforfPipefBursting (March 2001), prepared for the U.S. Army Corps of Engineers. The
   guidelines describe pipe bursting as follows: an existing pipe gets replaced size-for-size with a new pipe in
   the same location by fracturing the old pipe, displacing the fragments outward while a new pipe is drawn
   into replace it. It is the most cost-effective method when replacing old pipes.

www.oig.dhs.gov                                         3                                         	       DS-13-03
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


       o	 The City applied a different repair methodology (slip-lining method), and
          incurred repair costs that exceeded FEMA-approved amounts.5

       o	 The City did not obtain FEMA’s approval for changing the repair methodology or
          incurring additional costs.

   •	 Charged the project with $162,177 for tasks not included in the approved SOW—

       o	 $101,995 to reevaluate a new repair method and change the approved repair
          method to slip-lining.

       o	 $60,182 for emergency protective measures (Category B work). However, the
          FEMA-approved SOW for Project 897 was for permanent repairs only (Category F
          work).

   •	 Charged the project with $233,973 in ineligible hazard mitigation costs pertaining to
      engineering and design services and environmental studies (see finding B). FEMA
      has denied funding for the costs because the City did not complete the hazard
      mitigation work approved under the project (see finding B).

   City officials agreed, and Cal EMA concurred, that the $60,182 in project charges were
   for emergency protective measures and should not be included as permanent work for
   Project 897. They noted however, that the City—

   •	 Changed the repair methodology because the one FEMA approved was not the best.

   •	 Did not inform FEMA about the change in SOW or the increase in project costs 

      because they were not significant. 


   •	 Should receive reimbursement for the $233,973 in hazard mitigation costs, since
      FEMA had initially approved hazard mitigation work under the project’s SOW (see
      finding B).

   We disagree with the City and Cal EMA’s argument that changing the approved repair
   SOW and incurring additional costs because of the change in repair methodology did not
   require FEMA’s approval. FEMA guidance stipulates that the City is required to obtain
   approval for a change in the SOW and for additional funding needs (FEMA Publicf


   5
     ThefInternationalfSocietyfforfTrenchlessfTechnology describes slip-lining as the insertion of a new pipe
   into an existing pipe.

www.oig.dhs.gov                                          4                                         	       DS-13-03
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security
   AssistancefGuide, FEMA 322 (1999), pp. 115–116).6 We also disagree that the $233,973
   in hazard mitigation costs is eligible for Federal reimbursement.

   FEMA was not aware that the City had completed the project using an unapproved
   repair methodology and charged the project with unapproved costs in completing the
   permanent repairs. FEMA also noted that the City was not eligible for mitigation
   funding (see finding B). Therefore, we question the $1,014,589 in expenditures that the
   City has charged Project 897.

   Finding B: Costs for Two Projects Include Ineligible Hazard Mitigation

   The City charged $467,946 in ineligible hazard mitigation (mitigation) costs for
   architecture and engineering (A&E) and environmental studies to Projects 897 and 906.
   (The City allocated 50 percent, or $233,973, to each project). We question the costs
   because the City did not complete the mitigation repairs that FEMA approved under the
   projects’ SOW. In addition, FEMA has already informed the City that the costs are not
   eligible for PA funding.

   Federal regulations and FEMA guidelines stipulate the following:

   •	 An item of work must be required as a result of a major disaster to be eligible for 

      financial assistance (44 CFR 206.223(a)(1)). 


   •	 To be allowable under Federal awards, the cost must be necessary, reasonable, and
      adequately documented (2 CFR 225, CostfPrinciplesfforfState,fLocal,fandfIndianfTribalf
      Governments, Appendix A, Sections C.1.a and C.1.j).

   •	 Mitigation measures must be determined to be cost-effective. For measures that
      exceed the eligible cost for repair work, the grantee or subgrantee must
      demonstrate through an acceptable benefit-cost analysis that the measure is cost-
      effective. FEMA must approve proposed projects prior to funding. The measures
      will be evaluated for cost-effectiveness; technical feasibility; and compliance with
      statutory, regulatory, and Executive order requirements (FEMA, HazardfMitigationf
      FundingfUnderfSectionf406 (Stafford Act), FEMA 9526.1, Section 7.c and d (1998)).




   6
    The State Office of Emergency Services (Cal EMA) requires subgrantees to provide written notification of
   any significant changes in the cost or SOW; that is, a change in cost that exceeds 10 percent of the project
   estimate. Such requests shall contain sufficient documentation to support the eligibility of all claimed
   work and costs (California Governor’s Office of Emergency Services, Cal EMA, 2005–2006fStatef
   AdministrativefPlanf(2006), pp 37–38).

www.oig.dhs.gov                                         5                                         	       DS-13-03
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

   •	 A later version of FEMA 9526.1 states that if a facility has Section 406 hazard
      mitigation funding included in the approved SOW and the subgrantee wishes to
      restore the facility to its predisaster condition and function without the Section 406
      hazard mitigation SOW, then the subgrantee must request a change of SOW before
      the project is completed. Section 406 hazard mitigation funds must be deobligated
      when the subgrantee does not use the funds as approved in the SOW (FEMA, Hazardf
      MitigationfFundingfunderfSectionf406 (Stafford Act), FEMA 9526.1, Section VII.C
      (2007)).

   FEMA approved funding for Projects 897 and 906 to restore the City’s water well
   facilities located east and west of the Ventura River to predisaster condition. The SOW
   for the two projects included funding for disaster repairs and $1.8 million in hazard
   mitigation work to protect the damaged facilities from future flooding. The City,
   however, completed the disaster repairs for the two projects without the mitigation
   work. In addition, the City—

   •	 Did not inform FEMA in a timely manner that completed project repairs did not
      include mitigation or request FEMA approval for the change in SOW.

   •	 Developed a mitigation proposal with a SOW that was significantly different and
      more expensive than the one FEMA had approved.

   •	 Requested Federal funding of $5.4 million for hazard mitigation work.

       o	 FEMA completed a benefit-cost analysis and determined that the proposed
          mitigation work was not cost-effective, and deobligated the $1.8 million in
          mitigation funding previously approved.

   •	 Requested Federal reimbursement of $467,946 in costs related to A&E and
      environmental studies incurred to develop the revised mitigation proposal.

       o	 FEMA informed the City that the costs are not eligible for reimbursement, as the
          mitigation work approved under the projects was not completed.

   City officials argued that FEMA should reimburse the costs because FEMA (1) had
   approved mitigation funding under the projects, (2) was aware of the City’s action to
   develop a comprehensive hazard mitigation plan, and (3) had advised the City about
   coordinating with other government agencies to avoid duplicative efforts. Cal EMA
   officials concurred with City officials’ comments.




www.oig.dhs.gov                               6                                  	      DS-13-03

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
   A FEMA official explained that the City was not eligible for mitigation funding, as it did
   not complete the required repairs under the project. The official added that the City
   had been notified that the revised mitigation proposal exceeded the FEMA-approved
   SOW, and that the City should seek funding for the work under the Hazard Mitigation
   Program administered by the State.7

   Because the City did not complete the mitigation repairs approved under Projects 897
   and 906, we question the $467,946 in hazard mitigation costs the City plans to claim for
   the projects. This amount includes $233,973 in costs that we determined ineligible (see
   finding A). To avoid duplicate questioned costs, the net amount questioned and
   recommended for disallowance within this finding is $233,973 ($467,946 less $233,973).

   Finding C: The Replacement of a Damaged Well Did Not Meet Federal Regulations

   The City incurred costs totaling $268,503 under Project 906 to replace a water
   production well destroyed during the disaster. We determined that the new well was
   significantly different in design and components from the destroyed well. Moreover,
   the City did not perform a repair versus replace cost analysis as required under FEMA
   guidelines.

   Federal requirements and FEMA guidelines stipulate the following:

   •	 To be eligible for financial assistance, an item of work must be required as the result
      of the major disaster event (44 CFR 206.223(a)(1)).

   •	 A facility is considered repairable when the disaster damages do not exceed
      50 percent of the cost of replacing the facility to its predisaster condition, and it is
      feasible to repair the facility so that it can perform the function for which it was
      being used as well as it did immediately prior to the disaster. If a damaged facility is
      not repairable, approved restorative work may include replacement of the facility
      (44 CFR 206.226(f)(1)-(2)).

   •	 Replacement costs are eligible if repair costs are equal to or greater than 50 percent
      of the cost to replace a facility. Replacement costs include the costs for all work
      necessary to provide a new facility of the same size or design capacity and function
      as the damaged facility in accordance with current codes and standards (FEMA,
      PublicfAssistancefGuide, FEMA 322 (1999), pp. 28-29).


   7
    On October 4, 2010, FEMA notified the City in writing to consider the State-administered Hazard 

   Mitigation Grant Program as a source of funding for its comprehensive mitigation proposal, since the 

   mitigation did not qualify for PA funding. 


www.oig.dhs.gov                                        7                                        	       DS-13-03
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

   •	 A repair versus replacement analysis is conducted if repairs to a facility appear to
      cost 50 percent or more of the cost of replacing the facility (FEMA, Applicantf
      Handbook, FEMA 323 (1999), Appendix A, p. A-8).

   •	 Determination of eligibility for a replacement facility shall include only costs for the
      repair of damage, and not the costs of any triggered or mandatory upgrading of the
      facility beyond the repair of the damaged elements, even though these upgrade
      costs may be eligible for FEMA funding (FEMA, Thef50fpercentfRule:fThefEligibilityfoff
      FacilitiesfforfReplacementfunderf44fCFRf206.226(d)(1), FEMA Guidance No. 4511.61
      E, The Guidance (updated 2012)).

   During project formulation, the City represented to FEMA that the destroyed well
   (identified as Well 1A) was one of the City’s primary production wells and required
   replacement.8 However, City records indicate that the destroyed well was not a primary
   production well and did not suffer significant damage that would require replacement.

   •	 A City report indicates that the City initially constructed the well as an interim well
      while it upgraded its inventory of primary wells. The report further indicates that
      the destroyed well had previously been used for testing during the City’s Test Well
      Program.9

   •	 The City’s representation to FEMA that Well 1A was destroyed beyond repair is
      inconsistent with the status of the well immediately after the rainstorm subsided.
      As shown in figure 1, significant portions of the well remained intact, providing the
      City an opportunity to conduct a repair versus replace cost analysis in accordance
      with Federal regulation and FEMA guidelines.




   8
     The City completed replacement Well 11 on June 1, 2005, before FEMA approved funding for Project
   906 on June 22, 2005.
   9
     The report, prepared in 2002 by a City consultant, detailed four primary wells and ten testing wells, and
   identified one interim well (Well 1A). According to the report, the City used Well 1A as part of its Test
   Well Program to assess aquifer conditions and evaluate the feasibility of constructing additional primary
   well facilities as part of its Capital Improvement Plan, further validating that Well 1A was more of a test
   well than a primary well.

www.oig.dhs.gov                                         8                                         	       DS-13-03
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
                                                  Figure 1. 





                       Damaged well, designated as Well 1A, following the disaster.

                              Source: FEMA Region IX, August 29, 2012. 


   •	 The City did not provide FEMA with, nor did FEMA request, information showing the
      cost-effectiveness of replacing versus repairing the well. (FEMA was under the
      impression that the damage was beyond repair.) As shown in figure 2 and table 3,
      the design and components of the new replacement well significantly exceeded
      those of the damaged well.

                                                Figure 2.




                  Replacement well, primary water production well designated as Well 11. 

                                     Source: OIG site visit, April 2012. 





www.oig.dhs.gov                                     9                                        	   DS-13-03

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
                           Table3. Components of Well 1A versus Well 11 

                                          Well 1A                         Well 11
                                      (Interim Well)                  (Primary Well)
                   Material      Mild Steel – 10-           Stainless Steel – 18-inch well
                                 inchwell casing            casing

                   Equipment     --Submersible pump         --Programmable Logic Controller
                                 --Piping                   --Intellicenter Motor Control
                                 --Electrical Equipment     Center
                                                            --Enclosure for the Motor
                                                            Control Center
                                                            --Pump
                                                            --Pump chamber
                                                            --Piping
                                                            --Electrical equipment

   In response to our observations, the City—

   •	 Said that FEMA had approved the well replacement and that the FEMA-approved 

      project worksheet specifically documented that Well 1A was a primary water 

      production well that was destroyed by the disaster. 


   •	 Explained that the report prepared by the City consultant erroneously identified the
      Well 1A as an interim well.

   •	 Provided, in two separate instances, several electronic records to support its 

      assertions. 


   •	 Provided a State of California “Well Completion Report” for Well 1A, and explained
      that this type of report is for primary producing wells.10

   The City’s explanations and records did not provide evidence to support that Well 1A
   was a primary producing well or that it was destroyed beyond repair. With a few
   exceptions, the additional records provided by the City subsequent to our fieldwork
   were copies of the same documentation we had obtained previously. Further, the State
   of California issues Well Completion Reports for all well constructions. The report
   identifies components and capacity data of newly constructed wells, but does not
   identify the type of well constructed. The State issued a similar report for Well 1A in
   September 2001, when the City first constructed the well as an interim well.



   10
     The State of California, Resources Agency, Department of Water Resources, issues Well Completion
   Reports for all newly constructed, modified, or destroyed wells. The agency defines a test well as a well
   used to obtain information for designing other wells. There is no definition of an interim well.

www.oig.dhs.gov                                        10                                        	       DS-13-03
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
   Cal EMA noted that the City would need to prove that the well replacement meets the
   eligibility requirements of FEMA’s PA program before it can receive Federal
   reimbursement for the work.

   We conclude that the replaced well did not meet FEMA’s eligibility requirements.
   Therefore, we question the $268,503 that the City has charged Project 906.

   Finding D: The City Has Unused Funds That Cal EMA Needs To Deobligate

   City officials said that during the FEMA closeout, they would not be claiming cost
   reimbursements totaling $86,585 under Project 905.

   Federal appropriations laws and the Statement of Federal Financial Accounting
   Standards (SFFAS) stipulates the following:

           Federal agencies must record obligations in the accounting records on a factual
           and consistent basis. That is, the agency must increase or decrease obligated
           funds when probable and measurable information becomes known (Government
           Accountability Office, PolicyfandfProceduresfManual § 3.5.D; B-300480 (2003),
           and SFFAS Number 5, paragraphs 19, 24, 25, and 29).

   City officials explained that they abandoned the project and did not complete any of the
   repair work because the City could not obtain the required permits for the project. The
   officials added that they would not be submitting a cost reimbursement claim to FEMA
   for this project. Therefore, FEMA should deobligate $86,585 in unneeded project
   funding and put those funds to better use.


                                        RECOMMENDATIONS

   We recommend that the FEMA Region IX Administrator:

   Recommendation #1: Disallow $1,014,589 (Federal share $760,942) for ineligible repair
   and hazard mitigation costs incurred under Project 897 (finding A).

   Recommendation #2: Disallow $467,946 (Federal share $350,960) for ineligible hazard
   mitigation costs under Projects 897 and 906 (finding B). To avoid duplicating hazard
   mitigation costs questioned under recommendation #1, do not deduct $233,973 to the
   extent of FEMA’s disallowance of costs questioned in recommendation #2 (finding B).

   Recommendation #3: Disallow $268,503 (Federal share $201,377) for ineligible project
   replacement costs under Project 906 (finding C).

www.oig.dhs.gov                               11                                        DS-13-03

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Recommendation #4: Deobligate $86,585 (Federal share $64,939) from Project 905 and
   put those Federal funds to better use (finding D).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the results of this audit with City, State, and FEMA officials during our
   audit, and have included their comments in this report, as appropriate. We also
   provided written summaries of our findings and recommendations in advance to these
   officials and discussed them at exit conferences held with the City and Cal EMA on
   July 10 and August 9, 2012, respectively. City and Cal EMA officials partially agreed with
   finding A, did not agree with findings B and C, and agreed with finding D. FEMA officials
   withheld further comment until after we issue our final report.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendations. Until we receive and
   evaluate your response, we will consider the recommendations open and unresolved.

   Consistent with our responsibility under the InspectorfGeneralfAct,fwe are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report to our website for public dissemination.

   Major contributors to this report are Humberto Melara, Western Region Audit Director;
   Louis Ochoa, Audit Manager; Arona Maiava, Auditor-in-Charge; Renee Gradin, Senior
   Auditor; Paul Sibal, Auditor; and Elizabeth Finn, Program Analyst.

   Please call me with any questions, at (202) 254-4100 or your staff may contact
   Humberto Melara, Western Region Audit Director at (510) 637-1463.




www.oig.dhs.gov                                12                                        DS-13-03

                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security
                                                                                                    EXHIBIT

                                       Schedule of Audited Projects 

                                    December 27, 2004, to June 2012 

                                   City of San Buenaventura, California 

                                   FEMA Disaster Number 1577-DR-CA 


                                           Ineligible         Ineligible     Ineligible
                                          Repairs and          Hazard         Project
              Project        Project        Project          Mitigation    Replacement                    Unneeded
Project        Award        Charges          Costs               Cost          Costs        Total Costs    Funding
                                     1
Number        Amount       Reviewed       (Finding A)        (Finding B)    (Finding C)     Questioned (Finding D)
  897         $420,804      $1,014,589     $1,014,589                                       $1,014,589
  905            86,585                0                                                               0     $86,585
  906           303,609        502,476                         $233,973         $268,503        502,476
 1249           407,061        407,061                                                                 0
 1836           207,423        207,423                                                                 0
 Totals                                                                 2
            $1,425,482      $2,131,549      $1,014,589        $233,973          $268,503 $1,517,065          $86,585
    1
      Projects 897 and 906 incurred significant cost overruns of which the City did not properly inform FEMA 

    through Cal EMA. 

    2
      To avoid duplicate questioned costs, the net hazard mitigation amount questioned and recommended 

    for disallowance under finding B is $233,973 ($467,946 total hazard mitigation costs less $233,973).





www.oig.dhs.gov                                         13                                              DS-13-03

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
                                                                   APPENDIX

                                      Report Distribution

   Department of Homeland Security

   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison, DHS

   Federal Emergency Management Agency

   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Chief Procurement Officer
   Audit Liaison (Job Code G-12-007)
   Director, Recovery Division, Region IX
   Deputy Director, Recovery Division, Region IX
   Audit Liaison, Region IX
   Audit Follow-up Coordinator

   Grantee (California Emergency Management Agency)

   Secretary
   Executive Assistant to the Secretary
   Chief of Staff
   Audit Liaison

   State (California)

   California State Auditor, Bureau of State Audits

   Subgrantee (City of San Buenaventura)

   Risk Manager




www.oig.dhs.gov                               14                       DS-13-03

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
